OIG Audit Report GR-30-98-007
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Kermit, West Virginia Police Department
 
GR-30-98-007
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of four grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Kermit, West Virginia Police Department (Police
Department). The Police Department received grants of $23,400 to hire one officer under
the Funding Accelerated for Smaller Towns (FAST) program, $56,674 to hire one full-time
officer and two part-time officers under the Universal Hiring Program (UHP), $11,581 under
the Making Officer Redeployment Effective (MORE) 1995 program to purchase equipment and
hire a civilian, and $3,577 under the MORE 1996 program to purchase equipment. The purpose
of the additional officers, equipment, and civilian is to enhance community policing
efforts.
Due to the Police Department not fully meeting the terms and conditions of the grants,
we question $45,499 under the FAST/UHP grant and are recommending $34,575 be put to better
use. Further, the Police Department did not develop a redeployment tracking plan for the
MORE 1995 and MORE 1996 grants and incurred costs that were unallocable. As a result, we
question $15,158 in funds received for the MORE 1995 and MORE 1996 grants.

We found the following discrepancies with regard to meeting grant conditions:



For the FAST/UHP grants, one officer was hired prior to the baseline dates of the
      grants. Also, one officer was paid for three pay-periods under the FAST grant following
      his termination. Finally, three officers were employed as town officers prior to being
      assigned to the grants. There was no evidence that the Police Department backfilled their
      positions with local funds.




Purchases under the MORE 1995 grant were shared with the Kermit, West Virginia Water
      Department. In addition, the Police Department had no system to track redeployment. MORE
      1996 grant funds were advanced and used for payroll costs for the FAST/UHP and MORE 1995
      grants. Therefore, we question $15,158 in funds received for the MORE 1995 and MORE 1996
      grants.




The latest audit of the Town of Kermit was for the fiscal year ending June 30, 1993. The
      audit revealed that the Town of Kermits administrative and financial controls were
      inadequate to provide reliable operating and financial information. We saw no evidence
      that financial and administrative conditions had improved since the audit was completed in
      1993.




Budgeted funds generally decreased each year since FY 1992. The authorized number of
      sworn officer positions could not be determined. Therefore, we could not determine if
      Kermit budgeted for a decrease in positions.




Because of terminations, a total of nine officers were assigned to the grants. We
      confirmed that only one officer attended the academy to become a certified law enforcement
      officer. All officers hired worked as law enforcement officers; that is they carried guns,
      patrolled in uniform, and made arrests.




The Police Department did not implement community policing plans as outlined in their
      applications. Also, they did not implement any community policing activities upon receipt
      of the COPS grants.




The Police Department did not submit any program progress reports to COPS.




The Police Department had no intention of retaining the officers or civilian hired under
      the FAST, UHP, and MORE grants.


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in Appendix II.
#####